   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106




November 1, 2011

Report Number: A-07-11-02759

Ms. Vivianne M. Chaumont
Director
Division of Medicaid & Long-Term Care
Department of Health & Human Services
P. O. Box 95026
Lincoln, NE 68509

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in Nebraska. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
.
If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-11-02759 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Vivianne M. Chaumont


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




        REVIEW OF THE
QUARTERLY MEDICAID STATEMENT
   OF EXPENDITURES FOR THE
 MEDICAL ASSISTANCE PROGRAM
         IN NEBRASKA




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-07-11-02759
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (the State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income.
Additionally, States receive a higher, or enhanced, Federal share for some Medicaid services,
such as those related to family planning.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as Nebraska’s Medicaid managed care program, as long as the services
are included in their approved State plans.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

SUMMARY OF FINDINGS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed which totaled approximately $413 million (approximately $273 million Federal share)
was adequately supported by actual recorded expenditures. However, the State agency allocated
inpatient hospital services as family planning services, which received a 90-percent enhanced
rate (enhanced rate) of Federal reimbursement, through an allocation methodology which State
agency officials could not explain and for which State agency officials could provide neither
supporting documentation nor evidence that CMS had approved that methodology. For the
quarter ended March 31, 2009, the State agency received $43,948 in Federal reimbursement for



                                                i
family planning services at the enhanced rate, and we were unable to determine what portion of
this amount was allowable.

We also identified several weaknesses in the procedures used by the State agency to calculate
and claim Medicaid costs. Specifically, the State agency:

   •   used prison inmates to perform data entry of claims information that included personally
       identifiable information such as Social Security numbers and

   •   reported some expenses on the CMS-64 report for the quarter before the quarter in which
       the expenses were actually paid to providers.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, some policies and procedures, as well as some internal controls, could be strengthened.
Internal control weaknesses could result in the State agency’s reporting incorrect expenditures
for Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   work with CMS to determine what portion of the $43,948 (Federal share) in enhanced
       family planning funds that it received was allowable, and submit documentation to CMS
       supporting the reasonableness of the methodology used to allocate expenses for inpatient
       hospital services at the enhanced rate;

   •   discontinue the use of inmates to enter manual claims data that contain personal
       information;

   •   report expenditures only during the quarters in which the payments actually occurred; and

   •   strengthen internal controls to ensure that Medicaid expenditures are correctly calculated,
       assigned, and claimed in accordance with the approved State plan.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations and provided additional information as to corrective actions and improvements
that it had implemented or is undertaking. With respect to our third recommendation, the State
agency said that it reported expenditures on the CMS-64 report for the same quarter in which
those payments were made. The State agency also said that the timeframes in which it processes
payments to providers, and records those payments in its accounting system, are such that the
State agency sometimes claims these payments on the CMS-64 report in a different month than
the month in which the payments actually occurred.


                                                ii
The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations remain valid. Regarding our third recommendation, the State agency said that
it reported expenditures on the CMS-64 report for the same quarter in which those payments
were made. However, some of the State agency’s payments were in fact not reported for the
quarter in which the payments were made. Although a particular claim might have been fully
processed through the State agency’s Medicaid Management Information System, the payment
did not actually occur until it was processed through the State agency’s accounting system. In
some cases a new quarter began during that interval, and those are the cases when, contrary to
Federal regulations (45 CFR § 95.13(b)), the State agency did not always report expenditures
during the quarter in which the payments actually occurred. To conform to these regulations, the
State agency must therefore revise its policies and procedures for the processing of payments to
ensure that expenditures made in a quarter are reported on that quarter’s CMS-64 report.




                                               iii
                                                   TABLE OF CONTENTS
                                                                                                                                          Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicaid Program .........................................................................................................1
         American Recovery and Reinvestment Act of 2009......................................................1
         Quarterly Medical Statement of Expenditures for the
           Medical Assistance Program.....................................................................................2
         Quarterly Medical Statement of Expenditures Oversight ..............................................2
         Medicaid Management Information System ..................................................................2
         Use of Nebraska Data Systems to Process Medicaid Payments to Providers................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

      FEDERAL REQUIREMENTS ..............................................................................................5

      UNSUPPORTED AND UNAPPROVED METHODOLOGY TO ALLOCATE
        INPATIENT HOSPITAL SERVICES AT THE ENHANCED RATE ............................6

      PROCEDURAL WEAKNESSES .........................................................................................6
         Use of Inmates for Data Entry of Personally Identifiable Information .........................6
         Expenditures Reported Before Being Paid ....................................................................7

      INADEQUATE INTERNAL CONTROLS ..........................................................................7

      RECOMMENDATIONS ......................................................................................................9

      STATE AGENCY COMMENTS .........................................................................................9

      OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................10

APPENDIXES

      A: SUMMARY OF STANDARD FORM CMS-64 RECONCILIATIONS

      B: STATE AGENCY COMMENTS




                                                                     iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (the State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time. Certain Medicaid services receive a higher FMAP, including family
planning services which receive a 90-percent enhanced rate (enhanced rate) of Federal
reimbursement.

As part of the implementation of their Medicaid programs, States may submit waiver requests to
CMS; these waivers, when approved, allow exceptions to certain requirements or limitations of
the Act. Two such waivers authorized by the Act are home and community-based waivers
(section 1915(c)) and demonstration waivers (section 1115).

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provided an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ FMAPs. 1
Section 5000 of the Recovery Act provides for these increases to help avert cuts in health care
payment rates, benefits, or services and to prevent changes to income eligibility requirements
that would reduce the number of individuals eligible for Medicaid. Sections 5001(a), (b), and
(c) of the Recovery Act provide that a State’s increased FMAP during the recession adjustment
period will be no less than its 2008 FMAP increased by 6.2 percentage points and that a State
may receive an increase greater than 6.2 percentage points based on increases to its average
unemployment rate.



1
 The Education Jobs and Medicaid Assistance Act (P.L. No. 111-226, section 201) extended the recession
adjustment period for the increased FMAP through June 30, 2011.

                                                       1
With the Recovery Act funding, Nebraska’s FMAP for Medicaid expenditures increased from
59.54 percent to 65.74 percent for the quarter ended March 31, 2009.

Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

Quarterly Medicaid Statement of Expenditures Oversight

On a quarterly basis, CMS Regional office staff members perform a desk review on the amounts
reported on the CMS-64 report, a review that is designed to provide CMS with limited assurance
that the report complies with applicable Federal laws, regulations, and policy guidance and is
filed in compliance with CMS reporting requirements.

Medicaid Management Information System

Section 1903(r)(1)(a) of the Act states that, to receive Federal funding for the use of automated
data systems in administration of the Medicaid program, a State must have a mechanized claims
processing and information retrieval system. Pursuant to chapter 11, section 11100, of the CMS
State Medicaid Manual, this mechanized system is the Medicaid Management Information
System (MMIS). An MMIS is a system of software and hardware used to process Medicaid
claims and manage information about Medicaid beneficiaries and services. This system may be
operated by either a State agency or a fiscal agent, which is a private contractor hired by the
State.

Use of Nebraska Data Systems to Process Medicaid Payments to Providers

In addition to Nebraska’s MMIS, the State agency processed some Medicaid expenditures
through one or more of three additional data systems:

    •   Nebraska Information System (NIS): This application is responsible for processing the
        financial, human resource, and procurement data business processes for the State of
        Nebraska. State agency procedures call for all providers of Medicaid services to be paid
        through the NIS data system. MMIS claim payments interface with NIS, as do other
        State data system applications. According to State agency officials, NIS is the official
        accounting system of the State of Nebraska. 2



2
 State agency officials said that for public providers (i.e., the Beatrice State Developmental Center), the State
portion of the Federal matching requirement is not portrayed on the NIS system but is State-appropriated through a
separate State budget process.

                                                         2
    •   Nebraska Family Online Client User System (NFOCUS): The NFOCUS application is
        used to automate benefit/service delivery and case management for over 30 State agency
        programs. NFOCUS processes include client/case intake, eligibility determination, case
        management, service authorization, benefit payments, claims processing and payments,
        provider contract management, interfacing with other State and Federal organizations,
        and management and government reporting.

    •   Coordinating Options in Nebraska’s Network Through Effective Communication and
        Technology (CONNECT): Users access the CONNECT application through the State’s
        web portal. Individual user access to the application is controlled by the Access
        Restriction by Granular User Services (ARGUS) application. State agency programs that
        use this application include the Early Development Network, the Aged and Disabled
        Waiver, the Centers for Independent Living, the Area Agencies on Aging, Respite
        Services, the Medically Handicapped Children’s program, and the Disabled Persons and
        Family Support Services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Scope

The State agency claimed Medicaid costs totaling approximately $413 million (approximately
$273 million Federal share) for the quarter ended March 31, 2009. Our review period for
reviewing internal controls included October 1, 2008, through March 31, 2010, with expenditure
testing conducted on our selected quarter of interest (the quarter ended March 31, 2009). Our
review covered six judgmentally selected line items as well as judgmentally selected costs
relating to section 1915(c) home and community-based services waivers. The six line items and
the section 1915(c) waiver amounts totaled approximately $274 million (approximately
$181 million Federal share), which constituted approximately 66 percent of the State agency’s
claimed costs for the quarter. 3 The six line items were for Inpatient Hospital Services, Nursing
Facility Services, Physicians’ Services, Outpatient Hospital Services, Prescribed Drugs, and
Medicaid Managed Care Organization Services.

We limited our review of supporting documentation to records that the State agency maintained;
we did not evaluate claims submitted by providers to determine their validity. Our objectives did
not require a review of the overall internal control structure of the State agency. Therefore, we
limited our internal control review to the State agency’s procedures for aggregating Medicaid

3
 We obtained the costs that the State agency claimed and the judgmentally selected costs that we reviewed from the
Form 64.9 Base of the CMS-64 report and the section 1915(c) waiver pages; however, these amounts did not include
adjustments. Although we reviewed the adjustments for the six selected line items, the net adjustments were
immaterial.


                                                        3
expenditures on the CMS-64 report and reconciling those expenditures to detailed supported
records.

We conducted fieldwork at the State agency in Lincoln, Nebraska, from April through
October 2010.

Methodology

To accomplish our objectives, we:

   •   reviewed applicable Federal laws, regulations, and guidance, and applicable portions of
       the Nebraska State Medicaid plan;

   •   interviewed CMS officials responsible for monitoring the CMS-64 report to gain an
       understanding of the process used by CMS to review the CMS-64 report;

   •   interviewed State agency officials to gain an understanding of their policies and
       procedures for reporting Medicaid expenditures on the CMS-64 report and of the systems
       used by the State agency for reporting Medicaid costs;

   •   analyzed the State agency’s procedures for aggregating Medicaid expenditures for the
       CMS-64 report to assess whether those procedures would produce a reasonable and
       accurate claim for Federal reimbursement;

   •   reviewed the State agency’s process for reconciling expenditures reported on the CMS-64
       report to supporting accounting records for the period October 1, 2008, through
       March 31, 2010;

   •   gained an understanding of the State agency’s Medicaid waiver programs;

   •   assessed the overall accuracy of amounts claimed on the CMS-64 report by tracing those
       amounts to supporting reports from the State agency’s accounting system;

   •   judgmentally selected for review the six line items on the CMS-64 report and the costs
       associated with the waivers, as discussed earlier;

   •   reviewed the CMS-64 report for the quarter ending March 31, 2009, and compared the
       amounts claimed for Federal reimbursement to the information in the State agency’s
       MMIS and other data systems and to the State agency’s accounting records;

   •   reviewed the information in the State agency’s MMIS to assess whether duplicate
       payments occurred and to identify any errors in the MMIS data; and

   •   discussed our results with State agency officials on May 23, 2011.



                                               4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed which totaled approximately $413 million (approximately $273 million Federal share)
was adequately supported by actual recorded expenditures. However, the State agency allocated
inpatient hospital services as family planning services, which received a 90-percent enhanced
rate (enhanced rate) of Federal reimbursement, through an allocation methodology which State
agency officials could not explain and for which State agency officials could provide neither
supporting documentation nor evidence that CMS had approved that methodology. For the
quarter ended March 31, 2009, the State agency received $43,948 in Federal reimbursement for
family planning services at the enhanced rate, and we were unable to determine what portion of
this amount was allowable.

We also identified several weaknesses in the procedures used by the State agency to calculate
and claim Medicaid costs. Specifically, the State agency:

   •   used prison inmates to perform data entry of claims information that included personally
       identifiable information (PII) such as Social Security numbers and

   •   reported some expenses on the CMS-64 report for the quarter before the quarter in which
       the expenses were actually paid to providers.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, some policies and procedures, as well as some internal controls, could be strengthened.
Internal control weaknesses could result in the State agency’s reporting incorrect expenditures
for Federal reimbursement.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 433.32(a)) require that the State agency “[m]aintain an accounting
system and supporting fiscal records to assure that claims [reported on the CMS-64 report] for
Federal funds are in accord with applicable Federal requirements….” Federal regulations (45
CFR § 92.20(a)) require States to expend and account for grant funds in accordance with relevant
State laws and procedures for expending and accounting for their own funds. This regulation
also states: “Fiscal control and accounting procedures of the State, as well as its sub-grantees …
must be sufficient to permit preparation of required reports and to permit the tracing of funds to a
level of expenditures adequate to establish that such funds [Medicaid] have not been used in
violation of the restrictions and prohibitions of applicable statues.”


                                                 5
In addition, 2 CFR pt. 225 (formerly Office of Management and Budget Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments), Attachment A, section A.2.a.(2),
states: “Governmental units assume responsibility for administering Federal funds in a manner
consistent with underlying agreements, program objectives, and the terms and conditions of the
Federal award [i.e., the Medicaid program].”

UNSUPPORTED AND UNAPPROVED METHODOLOGY TO ALLOCATE
INPATIENT HOSPITAL SERVICES AT THE ENHANCED RATE

CMS’s Financial Management Review Guide Number 20 (Review Guide) states that when
multiple procedures are performed during a single hospital stay and one of them is related to
family planning, a State claim for Federal reimbursement must distinguish between those costs
attributable to family planning services and those costs attributable to other covered services.

The State agency identified inpatient hospital claims whose primary procedures were not family
planning services but which had at least one family planning code; for our audit period the costs
associated with these procedures totaled $724,624. The State agency then manually reassigned
25 percent of these costs, or $181,156, to the category of family planning services, for which the
State agency could claim Federal reimbursement at the enhanced rate. A State agency official
told us that the 25-percent figure was the product of an analysis that had been conducted over
15 years before our audit period.

The State agency could not document how it had arrived at the 25-percent allocation rate; nor
could the State agency provide supporting documentation or evidence that CMS had approved
this allocation method. As a result, we were unable to determine the allowable portion of the
$43,948 that the State agency received for the inpatient hospital expenditures that it had
reassigned as family planning services and for which it had claimed Federal reimbursement at
the enhanced rate. 4

PROCEDURAL WEAKNESSES

Use of Inmates for Data Entry of Personally Identifiable Information

The Social Security Protection Act of 2010, P.L. No. 111-318, has an effective date of
December 18, 2011, and prohibits prison inmates from having access to other individuals’ Social
Security numbers. The National Institute of Standards and Technology (NIST) Special
Publication 800-12, An Introduction to Computer Security: The NIST Handbook, section 10.1.3,
states: “Background screening helps determine whether a particular individual is suitable for a
given position…. [T]he screening process will attempt to ascertain the person’s trustworthiness
and appropriateness for a particular position.”

During the audit period, the State of Nebraska employed Nebraska Correctional Facility inmates
to perform data entry of CMS 1500 forms, a procedure that gives inmates access to PII such as
Social Security numbers. These inmates were incarcerated for crimes including drug use, theft,

4
 The $43,948 represented the difference between the amount claimed at the enhanced rate and the amount claimed
at the FMAP rate (65.74 percent).

                                                       6
and fraud. Additionally, the State determined whether a particular inmate was suitable for this
activity based upon the inmate’s criminal background check. According to a State agency
official, inmates who are held to be at high risk of committing fraud, bad checks, forgery, and
related offenses, are excluded from participation in this activity. The amount of claims that the
inmates entered for the quarter ended March 31, 2009, was approximately $5.7 million.

Because the inmates had been convicted and incarcerated, they did not meet NIST’s requirement
that a person should be both trustworthy and appropriate for a particular position that involves
access to PII.

State agency officials informed us that the State of Nebraska is in the process of discontinuing
any practices which give prison inmates access to Social Security numbers and plans to be in
compliance with the Social Security Protection Act of 2010 when it goes into effect on
December 9, 2011.

Expenditures Reported Before Being Paid

45 CFR § 95.13(b) considers a State agency’s expenditure for services under Medicaid to have
been made in the quarter in which any State agency made a payment to the service provider.
Additionally, CMS’s State Medicaid Manual, section 2500(D)(2), states that expenditures occur
when a cash payment is made to a provider.

Contrary to these Federal requirements, the State agency reported expenditures on the CMS-64
report for the quarter ended March 31, 2009, but did not make payments to providers until the
following quarter. Specifically, the State agency made payments of $27,630,069 on
April 4, 2009, but reported those payments on the CMS-64 report for the quarter ended
March 31, 2009. Because FMAP rates generally change on an annual basis, 5 and because the
increased FMAP rates provided by the Recovery Act were due to end on June 30, 2011, this
procedural weakness created a risk that the State agency would report incorrect and inaccurate
data to CMS, particularly if the State agency were to report expenditures on the CMS-64 report
for the last quarter of one fiscal year but not make payments to providers until the first quarter of
the following fiscal year.

INADEQUATE INTERNAL CONTROLS

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, some policies and procedures, as well as some internal controls, could be strengthened.
Internal control weaknesses could result in the State agency’s reporting incorrect expenditures
for Federal reimbursement.

In particular, we identified deficiencies related to the State agency’s financial and accounting
policies and procedures in the following areas: reconciliations, written policies and procedures,
segregation of duties, support for calculations of percentages used for expenditure reporting, and

5
 Pursuant to section 1101(a)(8)(B) of the Act, the Secretary of Health and Human Services is required to calculate
and publish yearly in the Federal Register the FMAPs for the 50 States and the District of Columbia.

                                                         7
information technology-related controls for the CONNECT system. In addition, we identified
other vulnerabilities that can occur through the use of multiple data processing systems with
multiple provider numbers for the same provider as well as the use of manual spreadsheets and
manual review of transactions.

Specifically, we identified the following inadequacies in the State agency’s internal controls:

       •   For the quarter ended March 30, 2009, the State agency did not reconcile expenditures, to
           ensure that they were accurately reported, until August 2010. Appendix A provides
           further detail on reconciliation for the period October 1, 2008, through March 31, 2010,
           including the dates of CMS-64 report submission to CMS, the dates of reconciliation, the
           number of months between CMS-64 report submission and reconciliation, and the
           variances in claimed expenditures. State agency officials have told us that since our
           fieldwork the State agency has taken steps to improve its reconciliation procedures. If
           the State agency does not reconcile amounts reported on the CMS-64 report to its
           accounting records in a timely manner, it increases the risk that the reported amounts may
           not be accurate.

       •   In addition, the State agency had no formal policies and procedures for reconciliation or
           for the reporting of Recovery Act-related expenditures. Policies and procedures allow
           employees to understand their roles and responsibilities and help them make timely and
           well-advised decisions, which in turn can reduce errors in employee performance of
           duties.

       •   The State agency did not segregate the duties between the preparation of the CMS-64
           report and its reconciliation. This control weakness can prevent mistakes from being
           identified and can permit incorrect amounts to be reported on the CMS-64 report.

       •   Because the State agency allocated inpatient hospital services as family planning services
           through a methodology that State agency officials could not explain and for which State
           agency officials could provide neither supporting documentation nor evidence of CMS
           approval, the State agency was not updating the percentage adjustments used in the
           preparation of the CMS-64 reports in a timely manner. This control weakness can also
           permit incorrect amounts to be reported on the CMS-64 report.

       •   The State agency also used manual spreadsheet calculations in its preparation of the
           CMS-64 reports for each quarter. Manual calculations increase the likelihood of errors in
           both payments and reporting.

       •   The State agency did not directly pay the State portion of the Federal matching
           requirement to public providers; 6 instead, the State agency calculated the total expense by
           dividing the Federal share paid to the public providers by the FMAP rate and reported
           that number to CMS on the CMS-64 report. State agency officials said that the State
           portion of the Federal matching requirement for public providers was paid through the
           Nebraska budget process; however, that payment was not recorded through the NIS data
6
    See footnote 2.

                                                    8
       system (payment of record for Medicaid expenditures). This internal control weakness
       provides another possibility that inaccurate reporting may occur.

   •   The State agency used multiple data systems (NIS, MMIS, NFOCUS, and CONNECT)
       for costs claimed on the CMS-64 report because of what State agency officials described
       as system limitations in the MMIS. Overlapping data systems could result in a single
       claim being paid more than once.

   •   The State agency did not have procedures to mandate that staff members who want to
       make changes to their CONNECT systems go through the same approval process as is in
       effect for changes in other claim and billing systems. This creates a system vulnerability
       as the CONNECT system is subject to manual manipulation without appropriate
       oversight.

   •   The State agency used more than one provider number for the same provider and
       manually reviewed transactions to determine their allowability. The combination of these
       two factors could allow a single claim to be paid more than once. Nebraska has edits in
       place but at times the duplicate payments are kicked out of the system, at which point
       they are subject only to a manual review.

RECOMMENDATIONS

We recommend that the State agency:

   •   work with CMS to determine what portion of the $43,948 (Federal share) in enhanced
       family planning funds that it received was allowable, and submit documentation to CMS
       supporting the reasonableness of the methodology used to allocate expenses for inpatient
       hospital services at the enhanced rate;

   •   discontinue the use of inmates to enter manual claims data that contain personal
       information;

   •   report expenditures only during the quarters in which the payments actually occurred; and

   •   strengthen internal controls to ensure that Medicaid expenditures are correctly calculated,
       assigned, and claimed in accordance with the approved State plan.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations and provided additional information as to corrective actions and improvements
that it had implemented or is undertaking. With respect to our third recommendation, the State
agency said that the expenditures it reported on the CMS-64 report were for “… expenses
actually paid to providers within the quarter for which they were reported.” The State agency
also said that its processing of payments to providers “… is impacted by the timing of electronic
payments …” between the MMIS and the NIS accounting system. The State agency added that

                                                9
the timeframes in which it processes payments to providers, and records those payments in its
accounting system, are such that the State agency sometimes claims these payments on the
CMS-64 report in a different month than the month in which the payments actually occurred.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations remain valid. Regarding our third recommendation, the State agency said that
it reported expenditures on the CMS-64 report for the same quarter in which those payments
were made. However, some of the State agency’s payments—specifically, some electronic fund
transfers (EFT)— were in fact not reported for the quarter in which the payments were made.
Although a particular claim might have been fully processed through the MMIS, the payment did
not actually occur until it was processed through NIS. The State agency acknowledged that
EFTs were not made until the Wednesday after the weekend during which the relevant claims
were processed through the MMIS. In some cases a new quarter began during that interval, and
those are the cases when, contrary to Federal regulations, the State agency did not always report
expenditures during the quarter in which the payments actually occurred.

Federal regulations (45 CFR § 95.13(b)) require a State Medicaid agency to report expenditures
on the CMS-64 report in the quarter in which the State agency disbursed or transferred cash to
the provider. Thus, in cases when the State agency made EFTs on a Wednesday that fell in
Quarter 2, for claims that had been processed through the MMIS on a prior weekend which fell
within Quarter 1, the State agency should have reported those payments on the CMS-64 report
for Quarter 2. To conform to these Federal regulations, the State agency must therefore revise its
policies and procedures for the processing of payments to ensure that expenditures made in a
quarter are reported on that quarter’s CMS-64 report.




                                               10
APPENDIXES
               APPENDIX A: Summary of Standard Form CMS-64 Reconciliations

   CMS-64                                       Date Nebraska    Months Between                 Variance with
   Report 1             Date CMS-64               Reconciled    CMS-64 Submission            Claimed CMS-64
Quarter ended          Filed with CMS 2             Quarter     and Reconciliation               Expenditures
 12/31/2008               5/15/2009            September 2010      16 months                            $ 983
  3/31/2009               6/11/2009              August 2010       14 months                     $ 10,227,619
  6/30/2009               8/14/2009              January 2010       6 months                         $ 48,684
  9/30/2009               11/17/2009           November 2010       12 months                      $ 1,455,865
 12/31/2009               2/19/2010               March 2010         1 month                      $ 3,019,701
  3/31/2010                5/3/2010                May 2010         0 months                      $ 3,462,977




1
    Standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program
2
    Centers for Medicare & Medicaid Services
                                                                                                                    Page 1 of 2



                      APPENDIX B: STATE AGENCY COMMENTS 





JL~.                             DivlsiDn of Medicaid and Long-TomrCate                                State of Nebraska
Nebraska aepartmen! of Health                                                                          Oave Heineman. Governor
    and Human Service.




               October 1, 2011




              Patricld. Cogley 

              Regional Inspector General for Audit Services 

              Office of Inspector General 

              Depal1ment of Health and Human Services, Region VII 

              60 I East 12'h Street, Room 0429 

              Kansas City, Missouri 64 106 


               RE: Report NUlnber A-01-\1-0275.9

              Dear Mr. Cogley:

              The Nebraska Department of Health Ilnd Human Services (DHHS) Division of Medicaid and
              Long-Term Care is pleased to have the opportunity tQ respond to the Draft Audit Repol; entitled
               Review oj the Quarterly Medicaid Slalement oj Expenditures jar The Medical Assislance
              Prog/'(/ill ill Nebraska. DHHS sltives to report Medicaid expenditures in compliance with current
              Federal and State law, policies, and procedures and is committed to working to resolve issues
              identified in this audit review.

              DHHS is also appreciative of the hard work on the part of the OIG staff to gather Information
              from the DHHS staff. YOUI' observations lire important in helping improve policies and
              procedures already in place and ensure continued compliance. DHHS' specific responses to each
              of the preliminalY findings and recommendation identified. in the DraftAudit ReportJollow:

              OIG RECOMMENDATION #1: Work with CMS to determine what portion of the $43,948
              (Federal share) in enhanced family planning funds that .it received was allowable, and submit
              documentation to CMS Suppolting the reasonableness of the methodology used to allocate
              expenses for inpatient hospital services at the enhanced rate.

              DlIIlS RESPONSE: DHHS agrees towol'k with CMS to detennine what portion ofthe $43,948.
              (Federal share) ill enhanced family planning funds is allowable and obtain approval of a
              methodology to allocate expenses for inpatient hospital services at the enhanced rate.

              OIG RECOMMENDATION #2: Discontinue the Use of Inmates to enter manual claims data
              that conta.in personal lnfonnation.

              DHHS RESPONSE: As a result of the passage of the Social Security Number Protection Act of
              2010, the Dep!lltmCllt reviewed its contract with the Depal1ment of Corrections Cornhusker State
              Industl'ies (CST) for data entry servic.es of some Nebraska Medicaid claims. A notice of
              termination was sent to CSlon June 29, 2011, and the ton tract was formally terminated as of
              August 12, 20 II.



                                                Helping People Live Better Lives
                                                A.II F.qu~f OppOtttlltdy/AlfilmB!JV9 Action Emp/Qydf
                                                      pnmed W'dn fOy in~ 00 'lKyC:j~ Nper
                                                                                                    Page 2 of 2




All mal1ual claims data for Nebraska Medicaid are now done by a combination of full time and
temporary State workers within the Medicaid Claims Unit located in the DHHS Central Office in
Lincoln, Nt.

OIG RECOMMENDATION #3: Report expenditures              011   the CMS-64 for the qmll1er in which
the expenses were actually paid to providers.

DHHS RESPONSE: The expenditures repOlted on the CMS-64 are for expenses actually paid to
providers within thequartel' for which they were reported. Tbe processing of payments is
impacted by the timing of electronic payments between the Medicaid Management Information
System (MMIS) and the Nebraska Information System (NIS), the State's accounting system.
When a payment is made in MMJS, paper vouchers in Nis show a payment date of the Monday
after the weekend of processing. For electronic claims, the NIS payment date is the Wednesday
after the weekend of processing. When the Wednesday falls on the I" or 2"'1, the NIS payments
will not match MM[S payments for a given month. April I, 2009, Was a Wednesday, so
payments in NIS with that payment date were actually included in the March 2009 reports. The
payments were processed ill MMIS in March 2009, with the appropriate March 2009 match rate.

oW RECOMMENDATION #4: Strengthen internal collttols to ensure that Medicaid
expenditures are correctly calculated, assigned, and. claimed in accordance with the approved
State plan.

DHHS RESPONSE: DHHS plans to continne to build on the improvements already
implelnented to ensure that Medicaid expenditures are eorrectly calculated, assigned, and claimed
in accordance with the approved State plan. As discussed with the O!Oauditors, measures to
increase operational accuracy were being worked on during the OIG audit or are in the process of
being developed.

Should youhave ouy questions, do not hesitate to contact me.

Sincerely,


  ~·~ki~
Vivianne M. Chaumont, Director
Division ofMedicaid and Long-Tenn Care
Department of Health and Human Services
